AUDIT OF FIDELITY AND DEPOSIT COMPANY 


            OF MARYLAND 


        SALTIMORE, MARYLAND 


        AUDIT REPORT NO. 9-06 

        ".
   M
    ~          aU.t/~
                                         U.S. SMALL BUSINESS ADMINISTRATION
   *	                          *            . OFFICE OF INSPECTOR GENERAL
                                                  Washington, D.C. 20416
        ''''/~1I.f.l1l ,..~"


                                                                     AUDIT REPORT
                                                            Issue Date: March 22, 1999
                                                            Report Number: 9-06


TO: 	                          Robert J. Moffitt
                               Associate Administrator, Office of Surety Guarantees

                             lsi Original Signed
FROM:                        Peter L. McClintock
                           . Assistant Inspector General for Auditing

SUBJECT: 	 Audit Report - Fidelity and Deposit Company of Maryland


      Attached is a copy of the subject report. The report contains three findings
and nine recommendations.               .

      The findings in this report are the conclusions of the Office of Inspector
General's Auditing Division. The findings and recommendations are subject to
review, management decision, and corrective action by your office in accordance
with existing Agency procedures for audit follow-up and resolution.

      Please provide us your proposed management decision for each
recommendation within 80 days on the attached SBA Forms 1 824,
Recommendation Action Sheet. If you disagree with the recommendation, please
provide your reasons in writing.

       Should you or your staff have any questions, please contact Victor R. Ruiz,
Director, Headquarters Operations at (202) 205-[FOIA ex. 2]
                     Audit of Fidelity and Deposit Company of Maryland 

                                      Baltimore, Maryland 
 


                                        TABLE OF CONTENTS 


                                                                                                         Page

SUMMARY ............................................................................................... 1 


INTRODUCTION 


    A. Background .....................................................................................2 


    B. Audit Objective And Scope ................................................................2 


RESULTS OF AUDIT 


    F&D Did Not Follow SBA Procedures For Underwriting ..............................3 


    F&D Did Not Follow Requirements Related To Claims, Expenses, 
 

    And Recoveries .....................................................................................4 


    "Fee Remittances And Refunds ...............................................................7 


    Unbilled Claims .....................................................................................9 



APPENDICES 


    A - Findings On Individual Contractors ...................................................... 10 


    B - Follow-up On Prior Audits .................................................................16 


    C - Glossary .........................................................................................17 
 


    D - F&D Response ................................................................................. 18 


    E - Report Distribution ...........................................................................27 

                                     SUMMARY

      We completed an audit of the Fidelity and Deposit Company of Maryland
(F&D). Our objectives were to determine whether: (1) F&D complied with SBA
underwriting policies; (2) F&D claims, expenses, and recoveries were in accordance
with SBA requirements; and (3) F&D fee remittances and refunds were timely and
accurate.

       The auditors concluded that F&D: (1) did not always follow SBA procedures
for underwriting; and (2) did not always follow requirements related to claims,
expenses, and recoveries. As a result, SBA was due $1,353,579 - $979,613
related to underwriting and $373,966 related to claims, expenses, and recoveries.
F&D has paid or has agreed to pay $1,124,330. We also found $86,775 in
erroneous fee refunds made to contractors who obtained bonds from F&D and that
F&D's suspense account contained fees that were owed to SBA and contractors.

       We discussed the results of our audit with SBA and F&D officials during an
exit conference held at F&D's headquarters on November 10, 1998. On February
17, 1999 we received written comments from F&D generally agreeing with our.
findings and recommendations with a few exceptions (see Appendix D for F&D's
response). We have deleted some or all of the findings and recommendations
associated with [FOIA ex. 4].                             The Associate
Administrator, Office of Surety Guarantees (AA/OSG) verbally agreed with our
findings and recommendations.

       We recommend that F&D be required to: (1) document project start dates
and Include copies of the SBA Form 994 and bonded contract in its files for all
future SBA guaranteed bonds; (2) remit $1,005 to SBA on one of [FOIAex.4,6] bonds;
(3) remit to SBA $42,700, which represents 70 percent of the uncollected portion
of the note for [FOIAex.4,6] (4) remit $635 to SBA for [FOIA ex. 4] due to the improper
allocation of expenses; (5) pursue the indemnitors of [FOIA ex. 6]     to recover the
losses which includes SBA's portion totaling $212,334, and remit to SBA its share
of the recoveries; (6) remit to SBA, within the required 90 days, its share of any
future recoveries/salvage received; (7) use its best efforts to assist SBA in
identifying those contractors who received the erroneous contractor fee refunds
and the amount of refunds that would have been made; (8) remit to the contractors
the remaining $4,105 in SBA contractor fees for bonds issued without an SBA
guarantee; and (9) remit the remaining $166 in fees due SBA that were in the SBA
suspense account.

       The. findings included in this report are the conclusions of the Auditing
Division based on the auditor's testing of operations. The findings and
recommendations are subject to review, management decision and corrective action
by your office in accordance with Agency procedures for audit follow-up and
resolution.
                                  INTRODUCTION 


A. BACKGROUND 


       Fe~eral construction contracts of $100,000 or more, as well as certain
private, state and local government contracts, require contractors to be bonded.
Surety bonds ensure that should a bonded contractor default, a construction project
will be completed and the contractor's employees and material suppliers will be
paid. SBA guarantees bonds for construction and service contracts up to
$1,250,000 if (1) the principal is a small business, (2) the bonds are required to
obtain the contract, and (3) the business is unable to obtain a bond without the
SBA guarantee. SBA certifies "preferred" surety companies to issue, monitor, and
service SBA guaranteed bonds without SBA's prior review and approval. SBA
reimburses a preferred surety an amount not to exceed 70 percent of the loss
incurred and paid.

      Fidelity and Deposit Company of Maryland, located in Baltimore, Maryland,
was granted preferred surety status in May 1990. Through September 1998, F&D
issued 3,304 SBA guaranteed bonds valued at approximately $707 million.

       See Appendix B for a follow-up on prior audits and Appendix C for a glossary
of terms used throughout this report.


B. AUDIT OBJECTIVE AND SCOPE

      The audit objectives were to determine whether (1) F&D complied with SBA
underwriting policies; (2) F&D claims, expenses, and recoveries were in accordance
with SBA requirements; and (3) F&D fee remittances and refunds were timely and
accurate. From October 1992 through June 1997, F&D reported 101 defaulted
bonds related to 52 contractors totaling approximately $6.3 million in claims and
expenses. We reviewed claims that included all contractors with total claim losses
exceeding $50,000. This represented 51 bonds related to 18 contractors totaling
approximately $5.4 million or 85.5 percent of the dollar value of all claims and
expenses in the period ~

      Fieldwork was conducted from April 30, 1997, through June 5, 1998, at
F&D's offices in Baltimore, Maryland. When the fieldwork started, the auditor
found that F&D could not provide auditable accounting records. For example, F&D
was initially unable to produce a report of all losses, expenses, and salvage for the
bonds audited when asked by the auditor. F&D subsequently remedied this
problem and the report was generated. The auditor also found that F&D had not
reconciled its database of loss and expense records with the monthly bordereau
submitted to SBA during approximately the first seven years that it was in the



                                       2
preferred surety bond program. As a result, F&D and SBA did not have reasonable
assurance that the amounts billed to SBA were accurate.

       F&D was very cooperative throughout the audit and was proactive in
impleme~ting numerous corrective actions to remedy problems identified during the
audit. The audit was conducted in accordance with Government Auditing
Standards.


                                RESULTS OF AUDIT

       Of the 51 bonds reviewed, 27 had deficiencies in one or more of the
following areas: a) underwriting (18 bonds); b) claims, expenses, and recoveries
(1 7 bonds); .and c) fee remittances and refunds (5 bonds). As a result, SBA was
due $1,353,579 -- $979,613 related to underwriting and $373,966 related to
claims, expenses, and recoveries. F&D has paid or has agreed to pay $1,124,330.
Appendix A provides a discussion of each of the above bonds, with the exception
of the findings for two companies previously reported on, [FOIA ex. 4, 6]      (see
audit report 7-7-H-006-025).


FINDING A: F&D Did Not Follow SBA Procedures For Underwriting

       For 18 of the 51 bonds reviewed, F&D did not follow certain established
policies and procedures for underwriting. Specifically, F&D (1) reported bond
execution to SBA in an untimely manner; (2) failed to obtain the required SBA Form
912, which certifies whether any of the obligees has a criminal record; (3) did not
follow its own underwriting standards; (4) did not document project start dates; (5)
did not have a copy of the SBA Form 994 "Application for Surety Bond Guarantee
Assistance;" and (6) did not have a copy of the bonded contract. As a result, SBA
paid F&D $979,613 in unallowable claims and expenses, of which F&D has
reimbursed $984,059.

       The chart on the following page identifies the underwriting deficiencies by 

contractor. Columns A - F show the number of bonds with a particular type of 

deficiency. 





                                       3
                                              Underwriting Deficiencies




             [FOIAex.4]
            [FOIA ex. 4, 6]

             [FOIAex.4]

            [FOIA ex. 4, 6]

            [FOIA ex. 4, 6]

            [FOIA ex. 4, 6]
            [FOIA ex. 4, 6]




• These numbers are based on SBA's loss balance as of December 1997, whereas the numbers in the MAmount Due SBA"
column are based on SSA's loss balance from a different date.

Legend of Deficiencies

A        Bond execution was not reported timely to SBA as required by The Preferred Surety Bond Guarantee Agreement.
B        SBA Form 9 i 2 was not obtained as required by The Information Book of the Preferred Surety Bond Program.
C        F&D did not follow its own underwriting standards.
D        Project start date was not documented as required by TItle 13 CFR 115.
E        SBA Form 994 was missing in violation of Title 13 CFR 115.
F        Copy of the contract was missing in violation of TItle 13 CFR 115.




Recommendation

AD 1. We recommend that the Associate Administrator, Office of Surety
      Guarantees, 	notify F&D to document project start dates and include copies of
      the SBA Form 994 and bonded contract in its files for all future SBA
      guaranteed bonds.


 Auditee Comments

          F&D did not comment on this particular recommendation and the
 corresponding deficiencies.


 FINDING B: 	 F
              	 &D Did Not Follow Requirements Related To Claims, Expenses,
              And Recoveries

           For 17 of the 51 bonds reviewed, F&D did not follow certain established
    policies and procedures related to claims, expenses, and recoveries. Specifically,
    F&D did not (1) collect outstanding contract balances, (2) document the contract
    balances, (3) adequately pursue indemnitors, (4) remit recoveries in a timely
    manner, (5) ensure that claims or expenses were allocable to SBA guaranteed
    bonds, and (6) remit the correct recovery amount to SBA. As a result, SBA is due
    $373,966, of which F&D has paid or has agreed to pay $140,271.


                                                       4
       The following chart identifies the claim, expense, and recovery deficiencies
by contractor. Columns A - F show the number of bonds with a particular type of
deficiency. Some bonds have more than one type of deficiency.

                                Oeficiencies Related To Claims, Expenses, And Recoveries




              [FOIAex.4]
            [FOIA ex. 4, 6]
             [FOIAex.4]
            [FOIA ex. 4, 6]
            [FOIA ex. 4, 6]
            [FOIA ex. 4, 6]
             [FOIAex.4]


• SBA's amount was based on its share of F&O's collecting a final contract balance of $7,467. F&O actually collected
$8,937 and paid SBA its share, $6,256.

Legend of Oeficiencies

A	       Contract balances were not collected as required by F&D's Claim Department Policies and Procedures Manual 100.
B	       Contract balances were not documented as required by F&O's Claim Department Policies and Procedures
         Memorandum 348.1 .
C        Indemnitors were not adequately pursued in accordance with F&D's Claim Department Policies and Procedures
         Manual 100.
D        Salvage or recoveries were not submitted to SBA in a timely manner as required by The Preferred Surety Bond
         Guarantee Agreement.
E        Unallocable claims or expenses were paid in violation of Title 13 CFR 115.
F        Incorrect recovery amount was remitted to SBA in violation of The Preferred Surety Bond Guarantee Agreement.




Recommendations

     We recommend that the Associate Administrator, Office of Surety
Guarantees, notify F&D to:

B01 .. Remit $1,005 to SBA for[FoIAex4,6]bond [FOIA ex. 2] due to the incorrect
       recovery amount remitted to SBA.

 B02. 	 Remit to SBA $42,700, which represents 70 percent of the uncollected 

        portion of the note for [FOIAex.4,6] 


 B03. 	 Remit $635 to SBA for [FOIA ex. 4]                        bond [FOIA ex. 2] due to the improper
        allocation of expenses.

 B04. 	 Pursue the indemnitors of [FOIA ex. 6] to recover the losses which includes
        SBA's portion totaling $212,334, and remit to SBA its share of the
        recoveries.


                                                        5
B05. 	 Remit to SBA, within the required 90 days, its share of any future
       recoveries/salvage received.


Auditee Comments

     F&D provided the following comments in response to our finding and
recommendations:

B01. 	 F&D remitted the proper amount ($2,832.97) to SBA for this claim. "This
       amount ($2,832.97) was the net difference between SBA's portion of the
       salvage ($3,937.47) and the SBA's portion of the losses ($1,004.50). The
       assertion that the SBA was entitled to all of the $3,937.47 fails to take into
       account the losses (totaling, $1,004.50), which F&D properly applied as an
       offset against the salvage."

B02. 	 "F&D acknowledges that it did not adequately pursue collection against the
       individual indemnitors." One of the indemnitors declared bankruptcy in
       which there were no assets and all debts were discharged effective January
       1 998. The other indemnitor lives on a fixed income and "has been
       encumbered by tax and other debts as a result of her relationship" with her
       ex-husband. "Accordingly, even if F&D had vigorously pursued its rights
       under the note, it appears that the recovery would have been nominal, if any.
       Notwithstanding, F&D agrees to credit the SBA $21,350 on the theory that
       it would have been able to recover a maximum of 50% (or $30,500) on the
       unpaid portion of the note."

B03. 	 F&D previously agreed to reimburse SBA $635 on this bond.

B04. 	 "This claim was handled in compliance with F&D's claim handling
       procedures. F&D intentionally waited to pursue the indemnitors for several
       reasons." F&D needed one of the indemnitor's cooperation to close out a
       very difficult job resulting in a deductive change order on the contract for
       about $21,500 less than the amount the owner has requested. It is F&D's
       understanding that the indemnitors (husband and wife) have no assets of
       significant value other than their residential real estate, which is not
       reachable by creditors under Texas law. Currently, F&D is pursuing its
       indemnitors and has proposed that they execute a promissory note for
        $192,620 in favor of F&D. "On the basis of their current financial condition,
       F&D has offered to accept monthly payments of $100 on this obligation and
       to credit the indebtedness $ 200 for every $1 00 that is paid. The payment
       terms 	are re-negotiable every five years, or more often should circumstances
       change that will permit the indemnitors to make large payments. F&D will
        cede the SBA's portion of any recovery to the SBA in accordance with the
       governing regUlations."


                                       6
B05. 	 F&D did not comment on this particular recommendation.


Evaluation of Auditee Comments

B01. 	 We disagree with F&D that no funds are due SBA for $1,004.50. An SBA
       official advised the auditor that in July 1993, the claims procedure did not
       provide for recoveries to be netted with claims. SBA's records show a
       separate claim paid for $1,004.50 and separate recovery received for
       $2,832.97 (we added an additional clarifying sentence to the finding in
       Appendix A). If SBA was incorrect and F&D did net the loss with the
       recovery, SBA is still due $1,004.50 because SBA paid the $1,004.50 claim
       separately.

B02. 	 Although F&D agrees that collection was not adequately pursued against the
       indemnitors, there still is disagreement over the amount that F&D would have
       been able to recover. We believe the AA/OSG should determine whether the
       compromise credit of $21,350 would be acceptable to SBA.

B03. 	 The auditee's proposed action is responsive to our recommendation.

B04. 	 Based on F&D's response, we added additional information to the finding in
       Appendix A and clarified our position pertaining to the pursuit of the
       indemnitors. F&D's agreement to cede SBA's portion of any recovery to
       SBA is responsive to our recommendation.


FINDING C: Fee Remittances and Refunds

Fee Refunds Resulting From F&D's Cancellation of Bonds

       At least $86,775 in erroneous fee refunds were made to contractors who
obtained bonds from F&D. In 1992, F&D canceled certain bonds for completed
jobs in its internal system as part of its routine business practice. Specifically,
F&D's practice was to cancel bonds from its system when a bond was not needed
(voided bond) or when a bonded contract was satisfied and no further obligation
existed. The F&D bond cancellation entry also triggered cancellation of the same
bonds in SBA's computer system due to the interface between the F&D and SBA
systems. A cancellation in SBA's system was defined to result in an SBA liability.
Therefore, SBA's system automatically generated fee refund checks for the
premiums and contractors' fees for these bonds. The checks for the premiums
 were sent to F&D. The checks for the contractors' fees were sent to the
 contractors and, in a limited number of cases, to F&D. F&D stated that it was
 unaware that SBA's system defined all cancellations as voided bonds, requiring



                                      7
  refunds to the surety and contractors. Of the $86,775 in contractor fee refunds,
  $9,660 was related to five bonds in our audit sample.

           f\;ji~lI(tPNTRAi;TOR        REFUNi:l~A1ViOONT1"~BlJN~ijJlJ$fP.~~~
                 [FOIA ex. 4, 6]    1--_ _ _ _----.:$.. . :1.. :. ,.::.3. . ;.4. . ;.4-f. [FOIA ex. 2]
                 [FOIA ex. 4, 6]
                                    1--_ _ _ _----.:$.. . :1.. :. ,.;:..8. :. 6. :. 0-f.   [FOIA ex. 2]
                 [FOIA ex. 4]
                                    1--_ _ _ _ _--=-$=2=2.=S-f.                            [FOIA ex. 2]
                 [FOIA ex. 4,6]                               $252                          [FOIA ex. 2]
                                    ~-------~~~
                 [FOIA ex. 4, 6]                     $5,976                                [FOIA ex. 2]


          F&D stated that upon discovering the effect of these cancellations and prior
   to the initiation of this audit, F&D returned to SBA the erroneous premiums and
   contractor fees that it received. F&D, however, was not aware of the contractor
   fee refunds that SBA made directly to contractors until brought to their attention
   during this audit. F&D paid SBA $5,976 for the erroneous refund made to
[FOIA ex. 4, 6]using excess recoveries received. F&D has agreed to use its best efforts
   to assist SBA in identifying those contractors who might have received such
   refunds and the amount of the refunds that would have been made. F&D also
   reinstated the canceled bonds through its direct communication link with SBA's
   computer system and directed its associates to not cancel satisfied/expired bonds
    on the SBA computer system.

          These events resulted from the difference between how F&D's computer
   system and SBA's computer system defined "cancellation of bonds." There was
   no violation of SBA regulations o~ policies. Moreover, F&D agreed to take
   appropriate actions to assist SBA in recovering these funds.

   Contractors Entitled To Fee Refunds

            F&D received $110,503 in SBA contractor fees for several bonds which
   F&D intended to issue with an SBA guarantee. F&D then decided to issue the
   bonds without an SBA guarantee. However, F&D did not return the SBA
   contractor's fees to the contractors. Instead, these fees remained in F&D's
   suspense account. As a result of the audit, F&D stated that it had repaid
   $106,398 of these contractors' fees to the contractors. F&D stated that with
   respect to the balance, F&D is attempting to identify the contractors and bonds for
   which these refunds should be made and will make these refunds to the extent that
   it is able to ascertain this information.

   SBA Entit/ed To Fee Refunds

          F&D's suspense account also contained $2,219 in fees due SBA. As a result
   of the audit, F&D stated that it had paid $2,053 of that amount to SBA. F&D also
   stated that it was working with SBA so that the remaining balance can be paid to



                                             8
                    r




SBA and be properly recognized in the SBA system. A contributing factor to this
deficiency was that F&D had not reconciled its SBA suspense account since it
entered the SBG Program in 1990. During the audit, F&D agreed to review the
SBA suspense account monthly and to reconcile the account annually.


Recommendations

     We recommend that the Associate Administrator, Office of Surety
Guarantees:

CO 1. 	 Notify F&D to use its best efforts to assist SBA in identifying those
        contractors who received the erroneous contractor fee refunds and the
        amount of refunds that would have been made.

C02. 	 Notify F&D to remit to the contractors the remaining $4,105 ($110,503
       - $106,398) in SBA contractor fees for bonds issued without an SBA
       guarantee.

C03. 	 Verify that SBA received $2,053, and notify F&D to remit the remaining
       $166 ($2,219 - $2,053) in fees due SBA that were in the SBA suspense
       account.

Auditee Comments

      F&D stated that "with respect to the $106,398.40 in fees which F&D has
refunded to contractors, the SBA requested and F&D has provided to the SBA
sample documentation of these repayments."

Evaluation of Auditee Comments

      We have reviewed the sample documentation of these repayments and
concluded that the repayments were made.


OTHER MATTER: Unbilled Claims

       When F&D performed its first reconciliation, it found unbilled claims to SBA
totaling $119,425 that were more than one year old. Title 13 CFR 115 requires
that a preferred surety must submit claims for reimbursement no later than one year
from the date the surety paid the amount. Thus, SBA is not obligated to reimburse
F&D for the unbilled claims paid. The AA/OSG stated a waiver could be approved
if F&D provided documentation (e.g. invoices) and justification for the untimely
claims. During the audit, F&D agreed to review its claim and fee records on a
quarterly basis and to reconcile the accounts annually.


                                      9
                                                                                                                                                                Appendix A

                                             FINDINGS ON INDIVIDUAL CONTRACTORS

                                                                                  [FOIA ex. 4]

   1 Bood Number,                               [FOIA ex. 2]1      Claim Number,                             [FOIA ex. 2]     I P$B Number         [FOIAex.2]               1
                                 r              [FOIAex.2]
                                                                                                                                                    [FOIA ex. --'-2]_ _ _- - '



       F&D did not collect outstanding contract balances of $59,827 (SBA share
$41,879) and $7,968 (SBA share $5,578) from the obligees. Title 13 CFR 115
requires "preferred" sureties to issue and administer SBA guaranteed bonds in the
same manner as non-SBA guaranteed bonds. As a result, F&D was required to
follow its internal policies and procedures. l=&D Claim Department Policies and
Procedures Manual 100 required F&D to fully pursue all legal and equitable rights
and remedies to which F&D is entitled to recover. F&D stated that the contract
balances were overlooked during an office reorganization and subsequently credited
SBA $47,457 as a result of the audit.

   I Bond Number                     [FOIA ex. 2]               I Claim Number                        [FOIA ex. 2]            I PSB Number   [FOIA ex. 2]



   I Bood Number                       [FOIA ex. 2]             I Claim Number                       [FOIA ex. 2]              PSB Number    [FOIA ex. 2]



       F&D did not have adequate support for the contract balances. On the first
contract, an F&D memo showed the contract balance as $3,136. On the second
contract, an F&D loss estimation showed an F&D payment of $69,925 to the
contractor and a remaining contract balance of $4,569. We did not find any
documentation to support the $69,925 payment or any other documentation to
provide assurance that the contract balances were accurate. F&D Claim
Department Policies and Procedures Memorandum 348.1 required that F&D obtain
a copy of the last approved and paid 'pay requisition', a copy of any approved and
unpaid requisition, and a copy of any unapproved requisition. Since the obligee
paid F&D $3,136 on the first contract and $4,569 on the second contract, we did
not dispute the contract balances and will not recommend repayment of funds on
this basis.

    !il.B!lJoo~dLL!Mllo!u!J..m!J<b~eL.r...!C[F~oI::.:.A=ex'..:c2]_---LI....!oCalla,"imL!..!...!N~uwm.LU£be~r [FOIA eJ': 2L_
   LI                                                                                                                          PSB Number    [FOIA ex. 2]



       F&D did not remit SBA the proper amount for a recovery received as required
by the Preferred Surety Bond Guarantee Agreement. Specifically, the July 1993
bordereau listed SBA's share of a recovery as $3,837.47 and SBA's share of a
claim as $1004.50. SBA records indicate that SBA received only $2,832.97 for
this recovery, a difference of $1004.50. However, SBA records also listed
separately, a claim paid for $1004.50.



                                                                                                10
     Bond Numbers:          Claim Numbers:       PSB Numbers:
     [FOIA ex. 2]           [FOIA ex. 2]         [FOIA ex. 2]




       F&D did not adequately pursue collection against the individual indemnitors
as required by F&D Claim Department Policies and Procedures Manual 100. F&D
obtained a note for approximately $65,000 from the indemnitors that required
monthly payments of $2,000. After two payments, the indemnitors stopped
making payments and F&D did not pursue further collection. We found no evidence
that the indemnitors filed for personal bankruptcy or justification as to why F&D did
not pursue further collection. F&D stated it has requested information concerning
the indemnitors' financial condition to assess what amount might have been
collectible on the note. F&D stated that they will propose a compromise credit to
SBA for this potential salvage once the information is obtained. SBA's share of the
uncollected $61,000 is $42,700.

       Also, F&D did not document the actual project start date for the eight bonds.
Title 13 CFR 115.60 (c) (1992 edition) requires that the sureties document
compliance with SBA regulations and retain such certifications in its files. F&D
agreed to document the project start dates and to verify that work has not started
prior to bond issuance.

                                        [FOIA ex. 4]



      F&D executed this bond without obtaining the required SBA Form 91 2 for a
new 40 percent owner of the business. In a program review, dated November 10,
1994, SBA informed F&D that -­

       the surety must obtain the SBA Form 912 and document the file so eligibility
       can be determined. Otherwise, the principal is not eligible.

We found no documentation indicating that SBA followed-up to determine if F&D
complied with the requirement prior to paying the claim. During the audit, we
requested that F&D obtain the Form 91 2 for the new principal. F&D obtained the
Form 912. A criminal history check of the Form 912 conducted by SBA DIG
Investigations Division revealed two minor offenses that should have been disclosed
on his Form 912. However, the nondisclosure would not have excluded the new
owner from obtaining a surety bond guarantee. As a result, we will not
recommend repayment of funds on this basis.

      In addition, F&D did not originally collect an outstanding contract balance of
 $7,467 (SBA share $5,227) as required by F&D Claim Department Policies and



                                       II
Procedures Manual 100. F&D stated that this was an oversight. F&D collected
$8,937 (more than the remaining contract balance) and paid SBA $6,256 on
December 17, 1997.

                                             [FOIA ex. 4, 6]

                      [FOIAex.2]                          [FOIAex.2]                      [FOIAex.2]



      F&D records showed an outstanding contract balance of $1 ,388 (SBA share
$972) was not collected as required by F&D Claim Department Policies and
Procedures Manual 100. Also, F&D's underwriting file did not contain a copy of
the SBA Form 994 as required by Title 13 CFR 115. Due to the audit, F&D
subsequently reimbursed SBA $937.

     Bond Number      [FOIA ex. 2]   I Claim Number       [FOIA ex. 2]   I PSB Number [FOIA ex. 2]        J
       F&D's underwriting file did not contain a copy of the bonded contract as
required by Title 13 CFR 115.

                                                [FOIA ex. 4]

   I Bond Number [FOIA ex. 2]        I Clajm Number       [FOIA ex. 2]   I PSB Number      [FOIA ex. 2]



       F&D did not report the bond execution to SBA in a timely manner as required
by the Preferred Surety Bond Guarantee Agreement. The bond was executed on
April 20, 1992, and was reported to SBA five months later on September 18,
1992. The project was completed as of September 11, 1992, prior to SBA
notification. F&D stated it was always their intention that the bond be SBA
guaranteed. F&D noted that [FOIA ex. 4] had obtained other SBA guaranteed bonds
from F&D. As of June 30, 1997, SBA's share of the losses totaled $6,682. Due
to the audit, F&D subsequently reimbursed SBA $6,682 for its share of the losses.

                                                [FOIA ex. 4]

   I Bond Number [FOIA ex. 2]        I Claim Number [FOIA ex. 2]         I PSB Number [FOIA ex. 2]
       F&D claimed expenses that were not allocable to the SBA bonded contract.
Title 13 CFR 115.64 (b) (6) (1991 edition) states that SBA may deny liability when
the loss occurred under a bond that was not guaranteed by SBA. F&D paid $907
to a vendor who performed work on another project not subject to SBA's
guarantee. As a result, SBA paid $635 that was not allocable to the bond that
SBA guaranteed. F&D could not provide an explanation on how the oversight
occurred. F&D agreed to credit SBA $635 on this bond.




                                                     12
                                              [FOIA ex. 4, 6]

     Bond Number    [FOIA ex. 2]   I Claim Number       [FOIA ex. 2]   PSB Number   [FOIA ex. 2] -   _ _ _- - - I




        F&D did not fully pursue collection of the loss from the indemnitors in a
timely manner as required by F&D Claim Department Policies and Procedures
Manual 100. Final payment of contract balances was made to F&D on August 11,
1997. On October 14, 1997 t F&D stated in their claim management system that
they "will make demand on our indemnitor." However, F&D did not send a demand
letter to the indemnitors until approximately one year later in October 1998. In a
June 15, 1998 letter to the auditor summarizing F&D's collection efforts, F&D's
Houston claims attorney stated that until just recently, the indemnitors/owners
could not be located. F&D only learned of the indemnitor's whereabouts through
F&D's engineering consultant, who the indemnitor contacted on an unrelated
matter. We found no evidence to suggest that F&D was trying to locate the
indemnitors prior to learning about the indemnitor's whereabouts from the
engineering consultant. F&D is currently negotiating a promissory note with the
indemnitors. As of June 30, 1997, SBA's share of the losses totaled $212,334.

                                            [FOIA ex. 4, 6]

   I Bond Number   [FOIA ex. 2]    I Claim Number [FOIA ex. 2]         PSB Number     [FOIA ex. 2]



       F&D did not report the executed bond information to SBA within 10 business
days as required by the Preferred Surety Bond Guarantee Agreement. The bond
was executed on July 13, 1994, and reported to SBA almost three months later on
October 5, 1994. F&D stated that the delay in reporting the bond to SBA was due
to delays in receiving Forms 1624 "Certification Regarding Debarment, Suspension,
Ineligibility and Voluntary Exclusion Lower Tier Covered Transactions" and 1261
"Statements Required by Laws and Executive Orders" from an F&D branch office.
F&D also stated that they always intended to place this bond in the SBA program,
so the untimely notification should not be a basis for denial of liability. There was
no evidence to indicate that SBA had agreed to the reporting delay. As a result,
SBA guaranteed an ineligible bond and as of February 1999, SBA's share of the
losses totaled $95,218. Due to the aUdit, F&D subsequently reimbursed SBA
 $95,218 for the losses.

                                                [FOIA ex. 4, 6]

   I Bond Number   [FOIA ex. 2]    I Claim Number       [FOIAex.2]     PSB Number   [FOIAex.2]                  ]

      F&D did not remit SBA's share of salvage in a timely manner. The Preferred
Surety Bond Guarantee Agreement requires the surety to reimburse SBA with its
share of any recovery or salvage within 90 days of any such recovery or salvage by
the surety. F&D recovered $60,219 (SBA's 70% share was $42,153) in contract


                                                   13
funds on May 5, 1997. As a result of the audit, on December 18, 1997, over 7
months later, F&D remitted the $42,153 to SBA. F&D stated that recoveries were
not remitted to SBA on a timely basis because SBA had not paid F&D for a large
number of items billed, and it was their custom and practice with reinsurance
accounts_ to withhold distribution of the salvage under such circumstances. After
receipt of recovery amount, SBA had no losses related to the bond.

                                                   [FOIA ex. 4, 6]

   I /lQar!.. r:i.lJ.mQfJl.   [FOIAex.2]
                                           I C/eim fi.lJ.mb~       [FOIAex.2]
                                                                                 eSB fi.lJ.mb~c.     [FOIAex.2]



   I BQnr!.. r:i.IJ.m.Qftl.   [FOIAex.2]
                                           I (;Jeim fi.IJ.m.Q~r    [FOIAex.2]
                                                                                 PSB   NlJ.mb~r    [FOIAex.2]



   I BQnr!.. Munt:J.f1.c.     [FOIAex.2]
                                           I C/eim fi.Cll!1QfJl.    [FOIAex.2]
                                                                                 PSB Numf2.er      [FOIAex.2]
                                                                                                                  :J
       F&D did not remit to SBA its share of salvage in a timely manner as required
by the Preferred Surety Bond Guarantee Agreement. F&D sued the principal and
indemnitors and settled for the payment of $20,000 in September and October
1 ~96. Due to the audit, F&D remitted to SBA its share of the recovery ($14,000)
on December 18, 1997, almost 1 5 months after the recovery. As a result, of the
receipt of this recovery and other adjustments, SBA's share of the losses on all
three bonds was $10,771 as of July 1,1998.

         The SBA Form 91 2s were missing for one partner and improperly processed
for the other partner. The Information Book of the Preferred Surety Bond Program
states that should an individual answer positively to questions 6, 7, or 8, the surety
must contact the SBA Office of Surety Guarantees for an eligibility determination.
The Information Book also requires the surety to obtain a completed SBA Form 91 2
for each partner in a partnership. Specifically, F&D obtained a completed Form 912
for one partner who indicated that he was presently under indictment, on parole or
probation. There was no evidence that F&D contacted the SBA Office of Surety
Guarantees for an eligibility determination. Subsequent to the audit fieldwork, F&D
stated that they initiated an investigation that revealed this contractor had no
criminal record in the jurisdictions searched. F&D stated that they will forward the
written report to SBA once it is received. Also, F&D did not obtain an SBA Form
 912 for the other partner and was unable to determine this partner's eligibility for
the SBA bond guarantee. Subsequent to the audit fieldwork, F&D stated that they
 initiated an investigation that revealed the partner had a prior criminal record. F&D
 stated that they were unaware of this information when the bonds were submitted
 for inclusion in the SBA program. Due to the aUdit, F&D subsequently reimbursed
 SBA $10,771 for its share of the losses.




                                                              14
                                         [FOIA ex. 4]

   I Bond Number   [FOIA ex. 2]   I Clajm Number      [FOIA ex. 2]   I PSB Number   [FOIA ex. 2]   ]




      F&D did not remit to SBA its share of salvage in a timely manner as required
by the Preferred Surety Bond Guarantee Agreement. In May 1997, F&D collected
the contract balance of $10,690 from the obligee. Due to the audit, F&D remitted
to SBA its share of the recovery ($7,483) on December 18,1997, almost seven
months after the recovery.




                                               15 

                                                                           Appendix B

                              FOLLOW-UP ON PRIOR AUDITS

       The Office of Inspector General has issued four prior audit reports related to
F&D's operations. The first report, issued in October 1992, cited oversight
weaknesses by F&D over its branch offices. In addition, the report stated that
F&D's policies related to contractor financial performance were more stringent than
required by SBA. F&D officials took appropriate action during the course of the
audit; therefore no recommendations were made in the report.

       The second report, issued January 1997, found that F&D was not requiring
contractors to complete the SBA Form 994 Application for Surety Bond
                                              II


Guarantee Assistance" in its entirety for the SBA bond guarantee. The report
recommended that SBA provide clarification to preferred sureties stating that the
SBA Form 994 should be completed in its entirety for the initial surety bond
guarantee and if an alternative form is used for subsequent application, it should
require similar information and certification as the SBA Form 994. The AA/OSG
agreed and implemented our recommendations.

       The third report, issued February 1997, found that F&D issued SBA
guarantees for ineligible contracts. These guarantees were ineligible because of
contract splitting and commencement of work prior to issuance of the bond
~uarantee. In addition, we reported that F&D did not document the actual start
date for projects. We made the following four recommendations to SBA:

• 	 notify F&D that SBA will deny liability on certain bonds;'

• 	 notify F&D to follow established procedures prohibiting splitting of contracts;

• 	 notify F&D to establish procedures which ensure that bonds are not issued after
    work has commenced, unless they obtain SBA approval; and

• 	 follow-up with F&D to ensure that their proposed procedures to identify actual 

    start dates have been implemented. 


The AA/OSG agreed with these recommendations.

      The fourth report, issued September 1997 (revised) as part of this       audit,
found that F&D issued a bond to [FOIAex.4,6] which was reported to SBA on      an
untimely basis and a bond to [FOIAex.4,6] without following F&D underwriting   standards.
F&D withdrew the bonds and refunded $871,387 upon becoming aware               that the
bonds did not qualify for a SBA guarantee.




                                       16
                                                                           Appendix C

                                     GLOSSARY

Bond         An agreement whereby one party, called the surety, obligates itself to
             a second party called the obligee, to guarantee the successful
             performance of a contract by a third party, called the principal.

Bordereau    A document submitted monthly to SBA by the surety which lists the
             PSB number, surety's claim number, date of claim, contractor name,
             claim and expenses paid and SBA's share of claim and expenses paid.

Claim        An amount requested of an insurer by a policyholder or a claimant for
             an insured loss.

Contract     Bonded contract price plus/minus any approved change orders, minus
Balance      any payments made by the obligee to the contractor.

Guaranty     An undertaking or contract to assume the liability for a debt, to
             perform a duty upon the default of another, or in general to give
             assurance that a thing will be done, or an obligation completed as
             promised. It provides that the guarantor will be liable for the failure to
             perform.

Indemnitor   A person or company which agrees with a' surety to hold surety
             harmless from any loss or exposure incurred on a bond that it issues.

Obligee      (Also called "owner") the party to whom someone else is obligated
             under a contract; the party protected by the bond against loss; an
             obligee may be a person, firm, corporation, government, or an agency
             of a government.

Prime        Person with whom the obligee has contracted to perform the contract.
Contractor

Principal    The one who is primarily responsible for fulfilling the obligation set
             forth on the contract and for whom the bond is issued. The principal
             is usually the contractor or subcontractor for whom SBA's surety bond
             gl,Jarantee is written.

Recovery     Reimbursement received by a surety from SUbrogation, indemnitors, or
             from salvage following a loss.




                                       17
                                                                                                Appendix D
                                                                                                Page 1 of 9

         The Fidelity and Deposit Com~nieS 

         Fidelity and Deposit Comoany of Marylana
         Fidelity and Surety Department
                                                                                           .....
                                                                                           ,.r-:  ­

                                                                                           -- .., -:'.'
                                                                                                  _. ". :      ~

                                                                                                L ................
                                                                                                                     . - r'
                                                                                                                      _.!
                                                                                                                     ; .•   :..)

         P. O. Box 17171
         Baltimore. MD 21297-1171
         My Direct Line IS: 410-528-4669
                                                                                          rEB     22 8 22 AN '99
                                                                                         OFF j -..; E '-.:- .:. IRE TY
                                                           February 17, 1999                    GUARANTEEs

   Mr. Roben 1. Moffitt
   Associate Administrator
   Office of Surety Guarantees
   U.S. Small Business Administration
   409 3rd Street. N.W.
   Suite 8600
   Washington. D.C. 10416


   Dear Bob:

           Enclosed please find "Fidelity & Deposit Co. ofMaJyland's Comments on the U.S. Small
   Business Administration Office ofInspector Generalis February 2. 1999 Draft Repon on Audit of
   Fidelity & Deposit Co. of.Maryland. Baltimore. Maryland" and supponing documentation.
   Before addressing a few of the key substantive issues. I would like again to express F&D's
   appreciation for the counesy and consideration shown by yourself and your colleagues in the SBA
   Office ofInspector General (OIG) during the course of this audit.

            The Draft Repon accurateJy described those items on which F&D has previously credited
   or agree to credit the SBA. Accordingly, F&D's comments are limited to those items on which
   F&D disagrees with the conclusions or recommendations of the SBA OIG and two additional
   items on which F&D now concurs with the SBA OIG's recommendations. F&D's comments are
   ordered to correspond with the order of the Draft Repon. However, F&D's comments/response
   fall principally into one of three categories.

              Eim. F&D has completed cenain previously agreed factual inquiries and now concurs
    with the SBA's findings on two additional groups ofbonds: The [FOIA ex. 4,6]         bonds (with
    respect to the pursuit of additional indemnitors) and the [FOIA ex. 4,6]      bonds.
    Specifically, F&D agrees to credit the SBA S21.350 on the[FOIAeX4,6bonds and SI0,771 on the
[FOIA ex. 4, 6]bonds.


           Second, the factual predicates for two of the items in the Draft Repon are incorrect.
   These specific grounds were articulated to F&D for the first time in the Draft Repon.
   Accordingly, this is the first opponunity which F&D has had to respond to and explain these
   inaccuracies. As F&D's Comments make clear. once the facts are correctly understood. there is
   no basis for seeking recovery on either item. We urge that the SBA OIG review these items


               FAX: 410-528-4748    Long Distance Phone: 1-800-626-4577   FAX: 1-800-329-6106
                                                         18
                                                                                            Appendix D
                                                                                            Page 2 of 9



Y1.r. Roben J. Moffitt 

February 17. 1999 

Page 2 



 carefuUyand delete them before issuing the final repon. The two i:ems at issue are[FOIAeX4,6]Claim
~umber[FOIA ex.    2](on which the SBA seeks to recover $}.004.50) and [FOIAex.4,6] Claim Number
[FOIA ex. 2]( on which the SBA seeks to recover $101.332). While we are concerned about the
 dollars at stake. we are also particularly concerned about the possibility of repeating the situation
 which we had last summer. where factually incorrect information was reponed to the public. We
 are optimistic that once the facts are correctly understood. these items will be removed from the
 final report.

         IIlifit. there are three items on which F&D continues to disagree with the findin2s or 

recommendations made by the SBA OIG. The three items are [FOIA ex. 4,6] 

                     With respect to [FOIA ex. 4] it appears that the SBA OIG is no longer relying on
any of the three specific grounds previously assened for denying liability (to which F&D has
previously responded). Instead. the SBA OIG asserts a founh and entirely new factual basis for
seeking recovery. No documentation has been provided to F&D to suppon the assenion being
made. Absent any supponing documentation. F&D continues to believe that this bond-was
eligible for guarantee and that the claim was proper for reimbursement.

        In the event that the SBA OIG elects not to change its conclusions or recommendation 

with respect to any of the items disputed by F&D, F&D requests that opponunity to meet with 

you or the appropriate person in your office to appeal the SBA OIG's decision. 


        Please call me if you have any questions or would like to discuss these items further.

                                                        VerY trulv vours.

                                                        [FOIA ex. 6]

                                                        Kenneth M. GivenY. Jr.
                                                        Vice President

nmf

 Enclosure




             FAA: 410-528-4748   Long Distance Phone: i9800..Q26-4577   FAX.: 1-BOO-329..Q106
   Freedom of Information/Privacy Act Release
               Redaction Marker


FOIA or PA Exemption(s)   FOIA Exemption 4

Withheld Pages            Pages 20 - 26

Description               Seven pages withheld in full pursuant to
                          FOIA Exemption 4
                                                                                                          Appendix E

                                           REPORT DISTRIBUTION 



Recipient                                                                                    No. of Copies 


Associate Deputy Administrator for Capital Access ..................................... 1 


Associate Administrator for Surety Guarantees ........................................... 1 

                                                                                  .
Office of the Chief Financial Officer 

 Attention: Jeff Brown ................................................................................ 1 


General Counsel. Office of General CounseL ...... ....................................... 2 


Fidelity and Deposit Company of Maryland ................................................. 1 





                                                              27
